Letter to Congress on NASA’s Export Controls, February 23, 2006

The NASA Office of Inspector General (OIG) issued a letter to members of Congress
in response to a requirement in Public Law 106-391, “National Aeronautics and Space
Administration Authorization Act of 2000.” The Law requires that the NASA OIG
conduct an annual audit of NASA policies and procedures related to the export of
sensitive technologies and the transfer of scientific and technical information to assess
the extent to which NASA is complying with Federal export control laws. In addition,
Conference Report 108-401, which accompanied H.R. 2673, the “Consolidated
Appropriations Act, 2004,” directed that NASA and the NASA OIG work together
and report annually on the risks associated with the illegal transfer or theft of
sensitive technologies.

The letter contained the results of audits and investigations completed in FY 2005 and
preliminary results of audits to be completed in FY 2006 concerning NASA’s efforts to
protect scientific and technical information from illegal transfer. Findings from those
audits and investigations indicated that additional export control policies and procedures
needed to be developed and that internal controls over sensitive technologies could be
improved. In addition to performing audits and investigations, the OIG also works
closely with the relevant NASA officials to continually assess and improve the
effectiveness of NASA’s Export Control Program and to prevent the transfer of
sensitive technologies.

The letter contains NASA Information Technology/Internal Systems Data as well as
Investigative Records information that is not routinely released under the Freedom of
Information Act (FOIA). To submit a FOIA request, see the online guide.
